<html>
<title> - [H.A.S.C. No. 116-47] SHIP AND SUBMARINE MAINTENANCE: COST AND SCHEDULE CHALLENGES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-47]

      SHIP AND SUBMARINE MAINTENANCE: COST AND SCHEDULE CHALLENGES

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 22, 2019

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 39-805               WASHINGTON : 2020 
 
                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOHN GARAMENDI, California, Chairman

TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
ANDY KIM, New Jersey, Vice Chair     AUSTIN SCOTT, Georgia
KENDRA S. HORN, Oklahoma             JOE WILSON, South Carolina
CHRISSY HOULAHAN, Pennsylvania       ROB BISHOP, Utah
JASON CROW, Colorado                 MIKE ROGERS, Alabama
XOCHITL TORRES SMALL, New Mexico     MO BROOKS, Alabama
ELISSA SLOTKIN, Michigan             ELISE M. STEFANIK, New York
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico
               Melanie Harris, Professional Staff Member
                 John Muller, Professional Staff Member
                          Megan Handal, Clerk
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Garamendi, Hon. John, a Representative from California, Chairman, 
  Subcommittee on Readiness......................................     1
Lamborn, Hon. Doug, a Representative from Colorado, Ranking 
  Member, Subcommittee on Readiness..............................     2

                               WITNESSES

Geurts, Hon. James F., Assistant Secretary of the Navy for 
  Research, Development and Acquisition, Department of the Navy, 
  and VADM Thomas J. Moore, Commander, Naval Sea Systems Command.     4

                                APPENDIX

Prepared Statements:

    Garamendi, Hon. John.........................................    37
    Geurts, Hon. James F., joint with VADM Thomas J. Moore.......    41
    Lamborn, Hon. Doug...........................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Houlahan.................................................    51
    
                    SHIP AND SUBMARINE MAINTENANCE:

                      COST AND SCHEDULE CHALLENGES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                         Washington, DC, Tuesday, October 22, 2019.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. John Garamendi 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE FROM 
        CALIFORNIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Garamendi. The committee will come to order. We note 
that we have guests from other parts of the Armed Services 
Committee. They will be coming in. And as they come in, without 
objection, they will join us and ask questions at the--I know. 
Everybody here is.
    But there are others that will be coming in a little later. 
And when they come in----
    Mr. Lamborn. It depends on who they are.
    Mr. Garamendi. Are you objecting, Doug? Are we going to 
have one of those days? Good.
    Good afternoon. I would like to welcome everyone here 
including anybody that shows up from the other committees that 
would like to join us.
    This subcommittee has conducted multiple inquiries into the 
damaging consequences of failing to sufficiently maintain our 
ships, our aircraft, and ground vehicles. A series of alarming 
mishaps in recent years and subsequent committee investigations 
into the surface Navy readiness revealed how degraded material 
conditions of ships and poor maintenance practices adversely 
impacted readiness and put our sailors at risk. Ship and 
submarine maintenance is particularly high stakes as the Navy's 
fleet is the foundation of global power projection. Rigorous 
and timely maintenance means we can have more ships at sea and 
it is necessary to preserve our ships' availability for their 
expected service life.
    Unlike other platforms, major ship maintenance work is 
complex, enormously expensive, and relatively infrequent, so it 
is critical that we get this right. Yet we have seen troubling 
delays in recent years. Perhaps most infamously, the USS Boise, 
an attack submarine, has been idling pierside in Norfolk for 
over 5 years and it lost its dive certification and it still 
awaits maintenance. I might even ask you when it is going to 
find its turn in line.
    Even our aircraft carriers have not been spared. The USS 
Dwight D. Eisenhower recent maintenance period tripled its 
intended length, and the USS George H.W. Bush is starting an 
anticipated 28-month maintenance availability that should take 
just 10 [months]. Indeed, since 2012, the Navy has completed 
only 30 percent of its ship and submarine maintenance 
availability on time, leading to 27,000 lost operational and 
training days. If the Navy has difficulty maintaining its 
current fleet, this raises serious questions about its ability 
to support a 355-ship fleet in the future. So maybe we ought 
not build any more until you guys get it right. Where is Joe? 
Oh, he is not here yet. Well, I will repeat that when he shows 
up.
    If we look forward to hearing about the Navy's efforts to 
address this problem--we do look forward to that and I 
understand there are several initiatives underway to improve 
the Navy's maintenance operations: a ship hiring and 
modernization plan, implementation of new contracting 
strategies, and analytical efforts to better forecast 
maintenance needs among other projects underway.
    But the solution should also involve grappling with the 
broader systemic cause. For years, the Navy has operated at an 
untenable pace, sustaining global presence it maintained 25 
years ago with a much smaller fleet. Leadership has prioritized 
building new ships over directing resources and management 
attention to maintaining the current fleet, and the Navy has 
struggled to honestly assess the amount of maintenance its 
ships need and how much that maintenance will cost. A holistic 
strategy must be put in place to confront these issues.
    We should applaud the Navy, and I will do so, for its 
efforts to create a culture of excellence and accountability in 
the surface community after the devastating collisions in the 
Pacific in 2017. A similar mindset is essential to ensure the 
Navy elevates ship maintenance. A similar mindset is necessary 
to elevate ship maintenance. I will repeat it for a third time. 
A similar mindset is necessary to elevate ship maintenance to 
be on par with shipbuilding. The success of our Navy depends 
upon it.
    With that I would like to turn to our ranking member, good 
friend, who never has seen an ocean from his front window, Doug 
Lamborn of Colorado.
    [The prepared statement of Mr. Garamendi can be found in 
the Appendix on page 37.]

STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE FROM COLORADO, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Lamborn. Thank you, Chairman Garamendi. We had the 
opportunity to meet last week with Secretary Geurts and Admiral 
Moore to discuss the important issue that is in our hearing 
today, and I look forward to a productive hearing today as 
well.
    What strikes me most about the challenges with ship and 
submarine maintenance is that it took several years to get us 
to this point, but it will likely take decades to get us to 
where we need to go. From my perspective, the scheduling aspect 
of ship and submarine maintenance is the key driver to whether 
the Navy succeeds or fails. Failure to strike the balance 
between today's operational requirements and sustainment will 
diminish strategic depth within the fleet, undermine investment 
in private shipyards, and cause industry to suboptimize its 
workforce of skilled artisans available to do this work.
    Candidly, I see it as a national issue when the Navy 
cancels an availability, and it should only be done in the 
direst of circumstances. The Navy is not on this journey alone. 
It already utilizes 21 certified private dry docks for 
maintenance availabilities. Our private partners want more Navy 
contracts, but past contracting and scheduling practices 
prevented them from seeing a steady stream of work. This caused 
them not to make the necessary capital investments to modernize 
their facilities and resulted in them suboptimizing their 
workforces.
    I look forward to hearing from our witnesses about how the 
Navy plans to structure maintenance contracts going forward and 
that we provide the requisite level of certainty to our 
industry partners. Our witnesses updated the chairman and me 
last week regarding their efforts to expand the number of 
private shipyards through their efforts to reduce the 
administrative burden for certifying a yard for Navy work. This 
is a positive step that I believe will foster additional 
competition. It will expand capacity and it has the potential 
to benefit both the government and the private sector.
    The state of the Navy's four public shipyards in 
Portsmouth, Norfolk, Puget Sound, and Pearl Harbor is so 
serious that Congress directed the Navy to develop a Shipyard 
Infrastructure Optimization Plan in 2018. These shipyards do 
most of the Navy's nuclear maintenance. GAO [Government 
Accountability Office] has categorized most of them as being in 
poor condition. The 20-year, $21 billion investment plan would 
overhaul the antiquated facilities, recapitalize equipment, and 
optimize the workflow to reduce wasted time and effort.
    While I am satisfied with the personnel investments being 
made in our public sector, this investment plan will fail if it 
is not supported by an adequate facility recapitalization plan. 
Candidly, gentlemen, my view is that the fiscal year 2020 
budget request did not demonstrate a serious enough commitment 
to this plan. We expect to begin seeing a significant 
commitment to the investment plan in the budget request each 
year and we want to see it funded across the FYDP [Future Years 
Defense Program]. One to two billion dollars per year is 
probably about right.
    From my perspective, we also need to send enough of the 
submarine availability work to private shipyards so that they 
can build the capacity to do that work efficiently. This would 
seem to be the way to avoid future issues like those we 
experienced and was mentioned earlier with the USS Boise which 
lost its dive certification in 2016 and has yet to begin depot-
level maintenance. The Navy is now sending some of its attack 
submarine works to General Dynamics Electric Boat and to 
Huntington Ingalls Industries. I am encouraged by this 
development, particularly given that we will likely need some 
industry capacity while we recapitalize the public yards.
    As with everything associated with this problem set though, 
the key is predictability. Finally, we must do a better job of 
forecasting the work that will be performed for each 
maintenance availability. My understanding is that 
approximately 40 percent of the work to be performed during 
each availability is unknown. The Navy and their industry 
partners will never meet schedule and cost objectives with that 
level of fidelity, particularly with the additional supply 
chain challenges that this creates.
    I look forward to hearing from our witnesses regarding 
their efforts to better leverage data and testing to reduce 
uncertainty before the availabilities even begin. Our two 
witnesses are fully engaged to address the myriad of problems 
facing this system of systems, as Secretary Geurts likes to 
call it. I appreciate the continued service and experience that 
you both bring to the nation and thank you for being here 
today.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Lamborn can be found in the 
Appendix on page 39.]
    Mr. Garamendi. Thank you, Mr. Lamborn. We will now turn to 
our witnesses. Mr. Geurts, Vice Admiral Moore, have you decided 
which will go first?
    Secretary Geurts. Sir, if it is all right with you, I will 
have an opening statement for the both of us.
    Mr. Garamendi. Very good.
    Secretary Geurts. And then submit a written testimony for 
the record.
    Mr. Garamendi. Please continue.

 STATEMENT OF HON. JAMES F. GEURTS, ASSISTANT SECRETARY OF THE 
 NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION, DEPARTMENT OF 
   THE NAVY, AND VADM THOMAS J. MOORE, COMMANDER, NAVAL SEA 
                        SYSTEMS COMMAND

    Secretary Geurts. Chairman Garamendi, Ranking Member 
Lamborn, and distinguished members of the subcommittee, thanks 
for the opportunity to appear before you today so we can 
discuss the Department of the Navy's ship and submarine 
maintenance. I am joined today with Vice Admiral Tom Moore, 
commander of the Naval Sea Systems Command.
    The Navy faces a high-tempo operation, significant budget 
pressures, and a fragile industrial base. All those together 
have resulted in a maintenance backlog and reduced maintenance, 
or reduced readiness for our Navy ships. Through our focused 
efforts over the last 2 years and with the great support of 
Congress, we have begun to reverse those negative trends. While 
recent on-time performance trends in both the public and 
private yards are improving, we have a lot of work to go to 
meet the ultimate goal of delivering every ship and submarine 
for maintenance on time and in full. The Navy fully understands 
the on-time delivery of ships and submarines out of maintenance 
is a national security imperative. The Navy has undertaken a 
comprehensive approach to address these challenges at both the 
public and private yards and we are starting to see the 
tangible benefits from these initiatives. We look forward to 
discussing those with the subcommittee today.
    Last year, Congress changed title 10 to place sustainment 
as a core responsibility under my office. It has enabled the 
Navy to better focus on this issue with clearer lines of 
accountability. Now I have since established a Deputy Assistant 
Secretary of the Navy for Sustainment to improve our ability to 
plan, budget, and execute the Navy's sustainment mission. I am 
proud to announce today that I have selected our first Deputy 
ASN for Sustainment, Mr. Sean Burke, who will be starting next 
week and will have this as his primary responsibility.
    Thank you for the strong support this subcommittee has 
always provided to the Department of the Navy, and the 
opportunity to appear before you today. We look forward to 
answering your questions.
    [The joint prepared statement of Secretary Geurts and 
Admiral Moore can be found in the Appendix on page 41.]
    Mr. Garamendi. Well, we do have a lot of questions and 
hopefully we see some answers out ahead of us that will solve 
them.
    Could you describe, as you did last week in a preliminary 
briefing, how you intend to go about the scheduling issues?
    Admiral, you, or Mr. Geurts, whichever you would like to 
do.
    Secretary Geurts. Sir, maybe I will kick it off and then 
Admiral Moore can join in. I think, you know, a key to this 
whole maintenance activity is getting the planning right. If we 
don't get the planning right, then it is really hard to make 
that up in execution, particularly when we have got to plan a 
budget cycle or two in advance.
    And so, I think we have a couple of initiatives that are 
really starting to improve that planning and that will carry 
all the way through contract execution and then execution of 
the maintenance period. And the first is working really closely 
with the fleet, and I will ask Admiral Moore to kind of discuss 
how he has worked with the fleet commanders so that we get the 
input into the system regulated and balanced. And so we input 
ships into the maintenance cycle in a way we can best absorb 
them and that is both a macro issue in terms of in the private 
yards, ports and port loading, as well as micro issue for each 
individual availability.
    The other key is Admiral Moore's team has really worked 
hard on the modeling so that we estimate the actual 
availability more accurately. We have a new model there at the 
last, I think, five availabilities; we have used that model and 
I have delivered on time. And those two things help us, I would 
say, at that macro level at planning. And then working closely 
when we get into execution with either the contracts or in the 
public yards maintaining our baseline, not adding work in late 
in the system, having the discipline similar that we do in new 
construction so that we work the work planned.
    There will always be some variability because, you know, as 
you open up a ship you learn things. But we are seeing already 
kind of that positive trend, being kind of a leading indicator 
is better planning, better planning means better budgeting, and 
then better budgeting leads to better execution.
    But, Tom, if you want to add in.
    Admiral Moore. Yeah, if I could add on top of that just to 
the ranking member's comment about the importance of 
predictability and stability in the work. Our past practice has 
been to--the fleet would give us a demand signal when they 
needed the ship back, and then we would build schedules, in 
many cases unrealistic schedules, to get the ship back, more 
work than we could handle based on the capacity, and we would 
deliver late.
    For the first time, both Admiral Grady and Admiral Aquilino 
have come to us and said, okay, as an input, please come to us 
with a realistic length for the availability based on the 
capacity you have in the yard, the work that you have to do on 
the ship, the modernization, the concurrency, how many other 
avails, and tell us how long you think you would like to have. 
Then we will take that, and we will input that into our fleet 
schedules, and we will come back and tell you whether that 
schedule will support what we need from a deployment 
standpoint.
    And so that back and forth between the fleets and NAVSEA 
[Naval Sea Systems Command] has been critical to doing two 
things. One, it allows us to get lengths which are executable 
lengths. And the other thing is, importantly, it has allowed us 
to do is to actually move these availabilities and create 
stable, predictable work in both the naval shipyards and 
probably even more importantly in the private sector for the 
private sector shipyards. That stable work is exactly what they 
need to hire and exactly what they need to make the 
investments.
    And so, as the Secretary alluded to, under the new system, 
the last five private sector surface ship availabilities, where 
we were able to work with the fleet to get the length right and 
put the place at the right time, they have all delivered on 
time. So I think that has probably been the key step is this 
working with the fleet in an integrative fashion to build a 
maintenance schedule that supports operations, but also 
supports the maintenance, the capacity that we have in the 
ports.
    Mr. Garamendi. I want to get into this in great detail. It 
seems to me that this is one of the foundational problems. You 
have 290 ships. Do you know when those ships need to be 
maintained?
    Admiral Moore. We do. Each one of them has a class 
maintenance plan and so we have a very good idea when they need 
to be maintained. There is a class maintenance plan. They all 
have, you know, I would say they have some--because of 
redundancy there is an ability to surge them if we need them 
operationally and then put them back in later. But, in general, 
we know exactly when we would like to have them go into 
maintenance availabilities in accordance with the class 
maintenance plan.
    Mr. Garamendi. You just used the word that I think is the 
problem, ``like to have.'' The ship maintenance is secondary to 
the demand for the ship by the COCOM [combatant command] 
commander; is that correct?
    Admiral Moore. Well, in most cases if the ship can operate, 
you know, we will send it forward. There are red lines that we 
operate to. The fleet commanders are working very closely with 
us to try and make sure that we don't pass those red lines.
    Mr. Garamendi. Well, again you just answered the question 
and the problem. There is, you know at the outset when a ship 
needs to be maintained, there is a schedule. It can vary 
somewhat, but that maintenance requirement to get it back into 
the shipyard is subject to the demand of the COCOM commander 
and in recent years they have had sway. They have said it, and 
therefore your scheduling in the yards is dependent upon their 
sense of need.
    You have indicated that you have been able to find some 
accommodation on this conflict with, I think that is the 
Pacific Fleet, and that is great as long as you have 
communication and I guess some sort of camaraderie, but that 
can end over a bad cup of coffee and--which I hope I didn't 
give you. It seems to me this is the heart of the problem.
    Secretary Geurts. Yes, sir. Maybe from a macro perspective, 
so we are doing a couple things. One, last year for the first 
time, we published a 30-year maintenance plan to go along with 
the shipbuilding plan. Now that was a first-generation product, 
we need to mature that over time. But that started laying out 
your earlier point in your opening comment that we were--we 
have got demand now we are having a hard time satisfying. That 
demand will grow.
    Mr. Garamendi. Now that Mr. Courtney is here, I will repeat 
my comment that you cannot take care of a 290 fleet, and 
therefore we ought to stop building new ships until you can 
take care of what you have.
    Sorry, Joe, but do we have a conflict?
    Please continue.
    Secretary Geurts. Yes, sir. The other thing that we are 
measuring now, so we have this kind of a performance plan where 
the Navy is getting together to really look at the balance 
between operations and maintenance. And as Admiral Moore says, 
you know, if there is an operational need, we will understand 
that. Give the options.
    What that looking at the whole system allows though is it 
gives us measures of performance like how many ships are behind 
on their annual maintenance plan. Where have we deferred work, 
where do we have--where are we putting ourselves in the hole, 
and then understanding that and then creating a plan to bring 
back that deferred work. Over the last 2 years we have been 
working very hard, particularly in the destroyer fleet, to 
bring all those destroyers back up to their maintenance 
standard, to get rid of--through sequestration and a lot of 
other things, we built a hole of deferred work.
    And so, it is not only getting the system working, whether 
it is getting that deferred work so everybody is back on their 
class maintenance schedule, that is an important measure that 
gives us looking at the entire system an indication that we 
haven't made, you know, a number of small tactical decisions on 
a ship-by-ship basis which has created a strategic shortfall.
    Mr. Garamendi. I am going to stay with this. Not this 
series of questions, but over the rest of this hearing and in 
future hearings, because I perceive this scheduling issue to be 
fundamental. And it is basically a power issue. Who has the 
power to determine where that ship is, and until that is 
rationalized in a way that deals with this maintenance backlog 
and therefore the unavailability of critical ships because they 
simply are not able to be at sea, we are not going to get very 
far.
    So I am going to drive this issue insofar as I have power 
here to try to bring about some rationalization between the 
demand of the COCOM commanders and the need for the ships to be 
maintained, and so we are going to have to deal with that over 
time.
    I am going to put one more issue on the table, but I am not 
going to deal with it, I am going to pass over to Mr. Lamborn 
in a second, and that is the yards themselves.
    Mr. Lamborn, you raised this issue rather well in your 
opening remarks. It is the second foundational issue, so your 
turn.
    Mr. Lamborn. All right. Yeah, thank you. And maybe we 
should have a second round of questions, too, if you weren't 
already planning on that.
    In reading your joint statement, I am not yet convinced 
that it fully reflects your actions. In the case of the SIOP, 
the Shipyard Investment Optimization Plan, the first 2 years of 
investment have underfunded the overall requirement. Now while 
I appreciate that large investments take time to plan, the slow 
start needs to be reversed. For example, GAO detailed that 
today the Norfolk Naval Shipyard's equipment was retained in 
operation more than twice the expected service life of that 
equipment. Additionally, the facility condition there and at 
Pearl Harbor Naval Shipyard and Portsmouth Naval Shipyard are 
all considered in a poor condition.
    When will the Navy's investment strategy match the required 
recapitalization requirement?
    Admiral Moore. Yes, sir. Well, thanks for the question. So, 
two things. One, we are ramping up significantly. I will tell 
you I have been in the Navy now going on 38-plus years, been 
doing the maintenance business for the last 25. We have gotten 
twice in funding what we have had in my history in both MILCON 
[Military Construction] and FSRM [Facilities Sustainment, 
Restoration and Modernization], MILCON in the naval shipyards 
than we had in the previous years. So, we have probably gotten 
about 90 percent of what we asked for being a forward program 
manager and that is not a bad life to lead.
    Your opening statement said the investment should be in the 
one to two billion-dollar range. You are spot on, but we have 
to do some planning up front. So what you are seeing now is a 
ramp-up. We got a little over $500 million in fiscal year 2019. 
I think the PB20 [President's budget] request is in that order. 
I think you will see as we head towards fiscal year 2021 it is 
going to continue that ramp-up. And the major projects that we 
are going to be doing, dry docks, moving things around the 
shipyards, will start in the 2022, 2023 timeframe and we are 
making those investments today to get the planning done and buy 
the materials so that we are ready to go to execute.
    So, you are absolutely right, we have to do this. I think 
we have a good integrated plan across the four naval shipyards 
and I think you are going to see, starting in fiscal year 2022-
2023, a substantial uptick. And we are going to get to a period 
between about '23 and about '30, 2030, where we are at a stable 
funding level in the order of about $1.5 billion per year.
    Secretary Geurts. Sir, one other thing to note in terms of 
our kind of seriousness and dedication to this, one of the 
things as we started this it is a $20 billion program. In the 
past we would probably attack that with a collection of small 
efforts led independently and maybe not as synchronized as they 
could.
    So, one of the things Admiral Moore and I have done is 
stood up as we would a regular program. We have put an 
accountable leader in charge of that program. We have given 
that leader all the authority from the program management side, 
from the facility side, from the equipment side, and that 
integrated team, I think it is the first time ever we have had 
an integrated, I will say program management, civil public 
works team held accountable to deliver that entire enterprise 
to us.
    Now it is being executed by each of the shipyards, but we 
have one accountable team that we are looking forward and we 
meet with them once a month to go through and make sure we are 
executing on plan. And I think that will help us. I mean, one 
will be putting the resources in place, and then the second 
will be executing on time and on schedule with those resources. 
That is the way we are attacking the second piece of it.
    Mr. Lamborn. Okay, now that annual amount, will that be 
protected in future fiscal years and how, even under times of 
extreme stress on the budget?
    Admiral Moore. Well, I can tell you in the last couple 
years, as we work our way through the budget at the corporate 
level, up at the senior level that money has because it is now 
a program, it is looked at differently than the way we have 
done it in the past where we kind of competed against 
everything else. In fact, the problem in the past is the four 
naval shipyards were competing against each other. They would 
all independently submit programs. They had their local 
constituencies that would support those, but it wasn't an 
integrated plan. It would go into the mix with every other bit 
of other MILCON that were going and it would get ranked and it 
would compete against other needed things, but barracks and 
base and piers.
    And so, what we have been able to do is fence this off and 
look at it as its own program. As the Secretary said, it is an 
established program under NAVSEA. I report to the Secretary on 
it. We have regular quarterly drumbeats at his level, they 
brief me monthly, and we are briefing this from the budget 
standpoint as a total program with both capital expenditures, 
MILCON and FSRM, which we have never done before.
    Mr. Lamborn. Okay, thank you. And to finish up on this 
subject, in your joint statement you highlighted several recent 
improvements at public shipyards to add new capabilities or to 
replace failing infrastructure. Has the Navy made these 
investments in concert with the overall investment plan or is 
there risk that some of these investments will be found to be 
suboptimized as the investment plan matures?
    Secretary Geurts. Sure. All those are part of the 
integrated plan. We may have mentioned them separately in the 
statement, but they are all, they are just evidence that that 
plan is off and running. So, we are not waiting 5 or 6 years 
for the perfect plan, we are already moving out and 
synchronizing. In some cases, we had preexisting MILCON 
projects we brought into the program. A lot of really good work 
on capital equipment in terms of machines and tooling. And the 
other piece I am very optimistic on is, I will call it 
deckplate innovation, using 3D printing, using new training 
techniques, using other ideas. So I kind of view it as a living 
plan and we always want them to be trying to bring anything 
they can left. If there is a new innovation, we can do that. We 
can, you know, change a plan to go take care of an opportunity. 
That is what we are expecting out of this integrated team.
    So those things listed in the plan weren't in addition to, 
they were just what has occurred as part of that plan to date.
    Mr. Lamborn. Okay. Thank you, Mr. Chairman. I yield back.
    Mr. Garamendi. I thank you, Mr. Lamborn, and I thank you 
for raising those issues. We are going to go to the 5-minute 
clock now.
    Ms. Horn, you are next.
    Ms. Horn. Thank you, Mr. Chairman. And thank you for being 
here. It is a critical issue. I am going to put a few of my 
questions through the lens of, I have Tinker Air Force Base, 
which is clearly a depot in Oklahoma, and some of the 
challenges they are different yet similar, right, of 
maintaining aircraft which are 70-plus years old. We do the 
complete depot maintenance for the KC-135s. And from years ago 
having a very long overhaul time, they have been able to 
significantly reduce it to play catch-up and there is 
significant need for playing catch-up here.
    So, my first question is, in this plan with the funding, 
with the needs and how far behind you have gotten is, how 
realistic do you think your projection is for growing the 
capacity of the public shipyards? Let's start there with the 
public shipyards.
    Secretary Geurts. Yes, ma'am. Maybe I will start for a bit 
and then turn it over to the admiral.
    So, coming from a former Air Force guy, so I am very 
familiar with that and actually they have done an incredible 
job, which we have on the aviation side and not a subject of 
this hearing, we are learning a ton from them and collaborating 
with and have a good relationship with them. I think we have 
been very careful, back to this integrated team, that we have 
one team accountable for executing the whole program.
    Where I struggled in past lives was where it was 10 
different teams or all reporting through different chains with 
different priorities and then we didn't get the synergy we 
wanted. So, I am confident in the plan. We will continue to 
update the plan.
    Admiral Moore can talk about some of the simulation we have 
done to ensure we have got the right plan, but we are learning 
from everyone, whether it is out there in other depots or other 
folks doing this in the commercial world.
    Admiral Moore. Yes, thank you for the question. We have 
actually been able to grow the capacity of the naval shipyards. 
In 2010 we were down around 29,300. Today we are at 36,100. 
That is where we need to be, so we got there, actually, a year 
ahead of schedule. So, the public yards have been able to hire 
and we are at the capacity we are going to need to be at given 
where we are with our nuclear ships, the number of carriers we 
have, and actually the number of nuclear-powered submarines for 
maintenance is actually going to slightly go down here over the 
next 10 years. So, I am satisfied where we need to be.
    On the private sector side, I think that is the challenge, 
is in surface ships, which is really going to be the bulk of 
the growth as we go to 355 is on the surface ship side of the 
house, how do you grow that capacity? And so back to the 
initial comments, the way you get the private sector to grow 
capacity is you provide them a stable, predictable plan that 
they can see and believe and they will hire. And we have 
started to see that in particular in San Diego and Norfolk 
where they have started to grow the capacity.
    What you can't do is have the sawtooth plans that we have 
had in the past which does not incentivize them because they 
are trying to make a reasonable profit to hire. So, to the 
extent, back to even to the original question that the chairman 
asked, this stable, predictable plan that we have been able to 
accomplish working with the fleet commanders, I think, can give 
us a chance. We need to go at about 2 to 3 percent per year. 
Industry tells me that is reasonable, they can accommodate that 
if necessary.
    Ms. Horn. So that following up on that, I think there is a 
couple things here that I am noticing. One is the schedule. I 
think Chairman Garamendi hit on that, an anticipatory 
maintenance schedule to reduce the significant degrees of 
maintenance, and also understanding that getting back on that 
schedule seems to me to be critical but without the capacity.
    So, my question is in terms of public versus private and 
where that is, it strikes me that the maintenance of all of 
these ships is in our overall national security interest and 
should be inherently something that is our responsibility. So, 
if the--and I agree with you about the predictability, but if 
the ships are not coming in, if we are having to push and they 
are not coming in on a regular maintenance schedule that also 
impacts the schedule and the predictability. So, is it a 
question of going to support more private shipyards or is it 
enhancing the capacity of public shipyards or some other 
combination to ensure they are getting back in and not getting 
pushed back out when they really should be in maintenance?
    Secretary Geurts. Yes, ma'am. I think the biggest issue is 
not operational pull. I know that is an issue we have had in 
the past. We have to get ships out on time. If I can't get 
ships out on time, it creates the demand signal and causes all 
these stacked effects. The challenge for us in the public yard 
are a little different than I think where Tinker faced is we 
are executing. We have reduced backlog by 50 percent over the 
last 2 years. Our challenge is we have to completely upgrade 
our infrastructure while we do maintenance. So, in the public 
yards that is going to be the critical element is while we 
maintain it, be able to feather in the infrastructure upgrades 
without causing a disruption.
    Ms. Horn. Thank you. I yield back.
    Mr. Garamendi. I might add that you have got a 20-year plan 
to upgrade the infrastructure. I don't know how you can meet 
today's demand with a 20-year plan for updating the 
infrastructure. We will get into that in much more detail, but 
I do want to turn to Mr. Scott. I will just let my question 
hang out there for a while.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, I, too, represent a depot, an Air Force depot. 
And in depot maintenance you have got parts, supplies, and 
facilities. You have a process and you have people. And my 
question gets to the constraint that has left the USS Boise 
sitting at the dock for 3 years. What is the constraint that 
has kept that ship sitting where it is?
    Admiral Moore. Well, at its most basic element, the problem 
with Boise is we did not have the capacity in the public 
shipyards to do the work and we were slow to see that coming.
    Mr. Scott. From a facility standpoint, Admiral, or from a--
--
    Admiral Moore. No, just from a workforce, the ability to--
--
    Mr. Scott. From a workforce.
    Admiral Moore. Yes, sir.
    Mr. Scott. Okay.
    That brings me to another question then. When is the last 
time the Navy has done a study with regard to the workforce and 
I guess the need for improvement there as--the balance of the 
workforce, I guess, is the word that I am looking for.
    Secretary Geurts. Yes, sir. And again, I will ask Tom to 
jump in. I think the challenge in the public yard is we didn't 
have the numbers and so we have actually accelerated our plan 
and gotten to our target number of workforce a year early. Our 
new challenge now or, you know, the next challenge is how do we 
train that workforce as fast as we can and make them as 
productive as they need to be. And again, a little bit 
different than in the Air Force side, we have a nuclear, for 
our nuclear ships they are maintained primarily in the public 
yards so there is a limited ability to offload that work.
    Mr. Scott. Sure.
    Secretary Geurts. And so the real initiative we are taking 
right now is we have got the workforce we need, now we need to 
get them trained and productive to the level we need them to be 
when the public, when the nuclear shipbuilding demand grows in 
the out-years. We have got a little time until that grows, that 
is our primary challenge right now.
    Mr. Scott. How did we not see this coming?
    Admiral Moore. Well, I wish I had a good answer for you. 
Back in 2016 when I took the job over, one of the first 
decisions I had to face was looking at the fact that we did not 
have the capacity in the naval shipyards to induct Boise. That 
led to a series of decisions about using the private sector to 
reduce some of the surge volume, but I don't have a good answer 
for you on that. Our past practice would have been stuff them 
in there and have them be 500 or 600 days late like we did with 
USS Asheville and Albany and that was just bad news for the 
crew, and so I think we made a conscious decision not to do 
that in going forward in the future. It was probably the right 
decision, but we should have seen this coming. And we have 
practices in place today to make sure that doesn't happen 
again.
    Mr. Scott. So we have 30 percent of the ships' maintenance 
is done on time. If we are doing a major depot overhaul does 
that 30 percent hold true or do we see a lower number there?
    Secretary Geurts. Yes, sir. So I think a couple things we 
are doing. One, you have got to reduce the backlog, right, and 
so we have reduced the backlog by 50 percent from the last 2 
years. We are two-thirds less of maintenance mandate, so that 
backlog is burning off. The second thing we have got to do, and 
as you look at the number of nuclear ships, we are going to 
time out. A lot of Los Angeles-class submarines are going, so 
the demand signal is actually going to go down a little bit.
    So, that is why we are feathering in that depot 
infrastructure with that reduced demand signal. Then when we 
have the infrastructure updated, we have got now an experienced 
workforce, we can pick up as submarine demand picks back up 
again in the 2030s.
    Mr. Scott. If I can, Mr. Secretary, I guess what I am 
getting at is, there is simple maintenance and then there is 
depot overhauls and two totally different animals here. Does 
that 30 percent hold true in both fields?
    Admiral Moore. No, actually, if you look at just kind of 
the work we do pierside and emergent work to get ships deployed 
that are not in depot, 100 out of the last 103 have delivered 
on time. So, we have a pretty good track record there.
    Mr. Scott. Okay.
    Admiral Moore. That tends to take the priority, obviously. 
And then to your question on do I expect the avail--the number 
is going to go up from 30 percent. My commitment to the CNO 
[Chief of Naval Operations] is we will deliver them all on time 
starting in 2021. And we have factored in this work in the SIOP 
to make sure that we can do the work and work at the shipyard 
at the same time. It is also another reason why we would like 
to grow some surge capacity in the private sector to provide 
kind of an outlet if we need that.
    Mr. Scott. I have just a couple of seconds and just a 
general comment. The total DOD [Department of Defense] budget 
number is higher than it has ever been in the past. I know you 
talk about constraints from a fiscal standpoint. I recognize 
that the CRs [continuing resolutions] are on us on this side, 
that is our fault for not getting them done and I know that 
causes problems for you. But I do think it is important that 
the people at the Pentagon and the DOD recognize that the 
actual budget number is higher than it has ever been, and it is 
going up at a pretty good pace. And I am not sure that that 
increased pace continues, so as you forecast into the future, I 
would not think that it would continue to increase at the same 
pace that it has.
    Secretary Geurts. Yes, you are absolutely--and we have got 
to drive down the cost per unit readiness because it is 
unaffordable at the current one. That is an absolute true fact.
    Mr. Scott. Mr. Chairman, I am done.
    Mr. Garamendi. Mr. Scott, very good series of questions.
    Ms. Houlahan, it is your turn.
    Oh, by the way, can I now ask permission for outsiders to 
join us? Is that okay, Mr. Lamborn, without objection?
    Mr. Lamborn. Didn't we already do that proactively?
    Mr. Garamendi. Without objection, we will allow others not 
on the subcommittee to join us.
    Ms. Houlahan, your turn.
    Ms. Houlahan. Thank you, sir. And thank you, gentlemen, for 
joining. My grandfather and father were career naval officers. 
I was the black sheep and was an Air Force person. But I happen 
to represent the suburbs of Philadelphia, so the Philadelphia 
shipyard is an important asset to me and to my community and so 
most of my questions will be about the private shipbuilding 
plan.
    So I understand that the Navy is working to implement the 
PSO or the private shipyard optimization and PSI, private 
sector improvement, initiatives to enlist our private shipyards 
to greater support and meet our readiness needs. Could you--
there is three parts to this question, so hang on. Could you 
elaborate on the work that these initiatives and any guidance 
or recommendations that you have to better utilize our private 
shipyards?
    And I also understand that we have language in the Senate-
side bill, $1.2 billion in naval operations maintenance funds 
and other procurement account to contract with private shipyard 
maintenance. What is your perspective on that, your perspective 
on this pilot program? And finally, what obstacles, if any, are 
preventing the Navy from better utilizing our private shipyards 
and is there anything that we can do here in Congress to be 
helpful with that?
    I would assume that you would be probably the best person 
to answer those questions?
    Secretary Geurts. Yes, ma'am, I will start, certainly. And 
we could have, you know, hourly, you know, an hour session on 
this alone. Here is where I think--here is where I'd like to go 
and we have talked a little bit about we have been doing a lot 
of pilot programs, and so I am fully supportive of looking at a 
multiyear appropriation as long as we have got the flexibility 
as work adjusts between those to kind of work between ship 
accounts. But I am fully supportive of the pilot, to answer 
your second question.
    What we are really trying to do in the private side, is 
give a much better, and hold much more stable a site picture of 
the total demand and get that out in time that allows folks to 
make investments, to hire the right workforce, and to not have 
to hire and fire workforce because we have shown that that 
hasn't been stable.
    So, we are looking to both increase our capacity--so Philly 
shipyard now is doing maintenance. They are doing some 
maintenance work for MSC [Military Sealift Command] and they 
are doing by all accounts a great job there, so they are a new 
partner kind of in that. That is an exciting--we have opened up 
some other capacity. And then we are working hard on our side 
to be as efficient as possible so we get the requirement out 
there early enough so folks understand it, and then minimize or 
make sure that everything we are doing on the Navy side in 
terms of inspections and checkpoints are adding value and not 
creating inefficiencies.
    So, I think if we show the demand, keep it stable, better 
contractor options, more players, and then steady and reliable 
work, all that will play together to bring new players in and 
have them feel like they can be a contributor and be profitable 
in the private yard. Because as Admiral Moore said, that is 
where the huge demand signal as we get to 355 ships.
    Ms. Houlahan. My other question has to do with the 
workforce that is required for this both on the private and 
public side. Some of the reading that you prepared in your 
statements had to do with the fact that our workforce, I think 
demands have been met largely or are being met largely, but 
with a younger or less skilled force. What kinds of things can 
we be doing to be flexible and creative with bringing those 
folks up to speed?
    Admiral Moore. Yeah, I think that is a great question. And 
we are fine in that the millennials and centennials learn 
differently and so investments in the infrastructure and IT 
[information technology], the way we do work is completely 
different. We have a--it used to take us typically in the 
public shipyards about 5 years to train an apprentice. They 
would just basically follow the old hand around and learn his 
trade from there. So we are going to state-of-the-art learning 
centers, basically, where they are safe to fail, away from the 
actual work, and we have been able to cut the time down to make 
them somebody that we could put on the deckplate work cut by 
half, and so we are going to have to continue to do that.
    The other thing we are going to have to continue to embrace 
is understanding the way the new, you know, the way this 
generation thinks about work and not be afraid of IT and some 
of the new technology that is out there, which, you know, if 
you go talk to some of the older folks they don't quite get it. 
But, you know, the kids today, they want an iPad in their hand. 
They want to be able to work that way. And I think we are 
worked in position that way to do well in both the public and 
private sector, which will help the workforce out.
    Ms. Houlahan. More virtual reality goggles or----
    Admiral Moore. Absolutely.
    Secretary Geurts. I am actually really excited. I mean, a 
lot of folks will say that is an impediment. I actually think 
we are at a generational level between construction and 
sustainment, bringing a workforce on that will drive a lot of 
the things this country needs. And I am actually really 
excited, because when we have gotten the right tools in their 
hands, their ability to accelerate learning and be productive 
has exceeded our, I would say, fairly optimistic expectations.
    Ms. Houlahan. Thank you, gentlemen. I have run out of time 
and I yield back.
    Mr. Garamendi. Thank you, Ms. Houlahan.
    I have heard the word ``plan'' multiple times here. I want 
to hear more about actual implementation of whatever plan is in 
place. I will now turn to Ms. Stefanik.
    Ms. Stefanik. Thank you, Chairman Garamendi.
    Mr. Geurts, Vice Admiral Moore, great to see you here 
today. Thank you for your testimony. While I do not represent a 
depot in my congressional district, I have a number of ship and 
ship--submarine building suppliers in and around my district, 
so we understand the need and necessity for skilled laborers. I 
also serve, in addition to this committee, on the Education and 
Workforce Committee, so we spend a lot of time thinking about 
future of work and what that qualified workforce looks like.
    So, for the long-range plan for maintenance and 
modernization of naval vessels for fiscal year 2020, you 
mentioned training the workforce several times. And my question 
to you is, do you anticipate expanding training opportunities 
with simulators and models similar to those used by naval 
operators such as the facility like Kesselring, which I 
represent? I see you guys nodding your heads, so I am looking 
forward to the answer.
    Secretary Geurts. Yes, ma'am. It is already occurring. We 
talked, Admiral Moore talked about training safe and so, hey, 
if I can 3D print a facsimile of a piece of equipment so we can 
train somebody on it and not have to use an actual asset and 
put that at risk in training, we are seeing astronomical 
improvements in both the training curriculum kind of hands-on, 
as well as training speed on there. But I think as a further, 
you know, for all of us it is an important, how do we level 
this talent that is available and bring it into these kind of 
more manufacturing jobs? We have some of the most complex 
digital models in the world. We are making digital models now 
of legacy ships. And so, our ability to marry that digital 
model of the work and put that with digital native workforce, I 
think, is going to give us a way that we don't have to wait 20 
years to get a 20-year experienced worker. Otherwise, you know, 
if that is what we are relying on, just time, we are not going 
to get there. And so, I think there is great opportunity.
    Tom, I don't----
    Admiral Moore. Yeah, I will just give you two additional 
examples. We talked about virtual training. Today, you can go 
to the naval shipyards and you can put a helmet on and paint 
and weld, and they can, basically, you can qualify, you know, a 
lot of your qualifications in terms of being a painter and a 
welder can be done in a virtual environment, which we haven't 
been able to do before, and that is a technology that the new 
generation understands well.
    So, exactly to your point, while I think we are working all 
of those initiatives, there is probably more work to do in that 
area. Obviously, the aviation community, through simulators, is 
kind of a step ahead of us, but we are certainly leveraging off 
a lot of that.
    Ms. Stefanik. Great, thank you. Yield back.
    Mr. Garamendi. Ms. Stefanik, thank you. We really need to 
look and work on that issue of the training of the workforce. 
There are many opportunities. Your experience on labor and ed 
is important. I think there are others around that can share 
with that. Fully implementing all of those training programs 
that are out there that may or may not have ever been connected 
to the public yards is something that we want to make sure 
happens. I thank you for that series of questions.
    Mr. Kim, I noticed that the chair of the committee that is 
causing all this problem with all these new ships has deferred 
the opportunity to ask questions and he continues to defer. So, 
Mr. Kim, it is your turn.
    Mr. Kim. Well, I just wanted to take a moment to just, you 
know, reiterate some of the points. I don't necessarily have a 
question myself. But, you know, I came here understanding just 
the sheer complexities of what it is that you are faced with. I 
understand how difficult this is and I have gotten a better 
sense of the vision you are trying to set forward, but I do 
reiterate the different concerns that some of my colleagues 
have mentioned on the staffing, on the personnel side of things 
as well as the maintenance component of this. I certainly leave 
this hearing with a better understanding myself of some of 
this, but there is still some areas where I either need greater 
knowledge and learning on my own end or just more information 
from you on how we can fill this.
    But I just start by saying, you know, I appreciate the work 
that you are doing in helping set the course for this vision. I 
know how complicated it is and I hope to be able to continue to 
work with you to try to make sure it is done in as responsible 
way as possible for our armed services men and women who are 
fighting the fight, so thank you so much. I yield back, 
Chairman.
    Mr. Garamendi. Mr. Bergman, your turn.
    Mr. Bergman. Thank you, Mr. Chairman. Gentlemen, thanks for 
being here.
    Mr. Geurts, you mentioned in your testimony--if I copied 
this right--a fragile industrial base. Could you elaborate on 
that?
    Secretary Geurts. Yes, sir. In the, you know, in the 1990s 
into the early thousands as we reduced new ship construction 
as, quite frankly, as the country reduced a lot of its 
manufacturing capability, we went from many suppliers, many 
shops, many trained tradesmen to very few. You know, if you 
look at new construction on submarines, on aircraft carriers, 
the number of suppliers have gone from tens of thousands to 
thousands and in more cases than we are comfortable with we 
only have one supplier.
    Mr. Bergman. Okay, so basically we reduced the number of 
facilities building ships, so therefore less capability, if you 
will, because you are not doing day to day. Given the fact that 
we are still going to have to maintain ships, is the best way 
to create that maintenance and re-workforce of the future given 
that we have fewer shipyards, is that best left to the people 
who actually make the ships or, really, what is the Navy's role 
in determining that? Because it is one thing to tell an entity 
what you want done; it is another thing to tell them how to do 
it.
    Secretary Geurts. Yes, sir. I don't think it is our role to 
tell everyone exactly how to do the work. There is a fairly, 
you know, there is lot of folks doing commercial ship repair. 
Part of our challenge is making sure on the private yard side 
that we have contracting vehicles, that we don't have barriers 
that would prevent them from working.
    So a way we got after that, for instance, we solicited 
anybody who has a dry dock, we will come out and look at it and 
certify it in advance of you having a contract so that you 
could compete for our contract should you want to. In the past 
we would say, well, only if you have a certified dry dock can 
you compete for our contract, and we kind of, we created 
barriers where we didn't need to create barriers.
    We have now seen new players, Philly Shipyard, doing ship 
maintenance. There is plenty of others coming into the 
marketplace creating a more robust marketplace.
    Mr. Bergman. If we had the folks doing the maintenance 
sitting at the table instead of you all, what would they say 
the barriers that are still there?
    Secretary Geurts. So I was last Thursday with three of our 
big ship, private shipyard maintainers in Norfolk: BAE, NASSCO, 
and Colonna's [Shipyard]. What they told me was, hey, we are 
happy with the trajectory you are going, we are seeing change, 
getting, you know, non-value-added inspections out of the way, 
awarding contracts earlier, giving us more stable workload, is 
all good.
    We just need to do it at scale and repeatably. If we can do 
it at scale and repeatably, then they will have the business 
ROI [return on investment] to start making the investments we 
need to grow this capacity. One thing I think we have 
opportunity to do which we haven't, I would say, figured out 
how to do yet or want to work with the committee on it, are 
what are the incentives, can we cost share in increasing 
capability on our new construction.
    We have mechanisms where we will invest in a shipyard, so 
that they will build the ships, future ships, cheaper. There 
are probably some of those we call CAPEX [capital expenditure] 
opportunities. We have to figure out how to do that and I think 
I would like to work with the committee on that because that 
would help perhaps incentivize and accelerate investments which 
will then give us return on cheaper prices. As Congressman 
Scott said, we can't afford, you know, to just pay more and 
more as we go forward. We have to get more productive and 
reduce the cost.
    Mr. Bergman. Okay, thank you.
    Mr. Chairman, I yield back.
    Mr. Garamendi. We now turn to the fellow that is creating 
all the problems, adding more and more ships to the backlog. 
Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. So, I want to again 
salute the subcommittee for holding this hearing. Actually, if 
you read the GAO report and the CBO [Congressional Budget 
Office] report that came out last year, the problems, actually, 
as Mr. Geurts said, the deterioration of maintenance actually 
almost occurred in tandem with sort of the deterioration in 
construction, and it is really an overall, you know, sort of 
sector question that we are all faced with.
    And I think actually trying to find ways to sort of blend 
together is the way we get out of this. So, for example, I mean 
the 30-year ship repair plan, really terrific, I mean, and it 
is really, you know, a really important, you know, innovation 
that I think you all can certainly take credit for. But one 
thing that I think some of us struggled was when the 2020 
budget came over, you know, the funding for private shipyard 
repairs for Boise, Hartford, and Columbus was not included in 
the baseline of the budget and was an unfunded priority.
    Again, Mr. Garamendi's subcommittee as well as the other 
three defense committees stepped up and, you know, are going to 
once we get--knock on wood--you know, completion of the 
conferences, you know, we are going to have some help going out 
there to do that. So I guess, you know, one way again of 
creating that stable signal that you just described is really 
just to, you know, sort of give your--I mean, if you could sort 
of share what your perspective is in terms of just moving 
forward in future budget years, you know, whether we are going 
to see that sort of funding for awards to private yards that 
again helps smooth out workforce cuts that again help both 
sides of the equation, both construction and maintenance.
    Secretary Geurts. Yes, sir. Sending over, you know, a 
hundred million-dollar or billion-dollar offer is not a way to 
create stability or advance planning. We were there for a 
variety of reasons. I think one of the biggest ways we are 
going to improve that is by getting our planning model right. 
And we went from, I would say, a fairly simplistic model on how 
we planned how long an availability was and made that a much 
more complex model, and on the surface side we are having some 
success there. On the submarine private side, we don't yet have 
that level of planning and we didn't have the workforce 
available and that created challenges because we just didn't 
have the sets and reps in on the Electric Boat and Newport--and 
good folks trying to do great work. We just didn't have a 
workforce established that knew how to do that repeatably. So, 
yeah, I think we will look on the submarine side is what is the 
capability we want in the private yards for either surge or 
for, you know, doing, you know, and then not overload it. We 
overloaded it by dumping too many submarines in there too 
quickly and that is what I think caused the condition. So we 
are working much more closely with them. We have at some times 
had some great initiatives to share everything we have in the 
public yards to them so they don't have to learn something if 
we already know it. We just need to professionalize that 
private yard maintenance of nuclear submarines to the degree we 
need that capacity.
    Admiral Moore. Yeah, I would say, you know, what we have 
learned from the private sector submarine work is if you have 4 
or 5 years between doing the work, you know, to his comment on 
sets and reps, it is different than building new and you lose a 
little bit of proficiency. So, we want the surge capacity in 
the private sector, so working with Naval Reactors and the 
Secretary, we need to build a, you know, a plan that puts the 
right amount of work in there in a predictable way that they 
can manage.
    You know, in this particular case, I think in hindsight, 
you know, we pushed too much work into Newport News and they 
were unable to execute multiple availabilities at one time, 
which is, you know, one of the reasons we have had some 
challenges with Boise. So, we owe a longer-term plan. We are 
working on that which would really give us the ability to go 
provide that surge capacity. It would also, as we get into SIOP 
and if we have to go work a dry dock at a shipyard, we have 
some options. So, I think that is certainly something we need 
to have as a long-term plan going forward.
    Mr. Courtney. I mean one thing, certainly, I have heard is 
that as this work hopefully starts to flow in, and again I 
think it really helps, it is a win-win across the board. You 
know, early identification of the requirements and, frankly, 
even maybe sharing of some parts, you know, it is just a way of 
just shortening the whole effort so that you are getting the 
boats out faster. So, I mean, I don't know if you would comment 
on that.
    Secretary Geurts. Yes, sir. Again, I think we need to 
professionalize it and create the right model where we are 
leveraging the strengths of both sides to achieve outcome. We, 
you know, we had to put a bunch of work there quickly. We 
learned some things. So, our challenge now is going forward, 
taking those lessons learned and applying them to the work. And 
in particular making sure we have enough planning time and so 
that we can plan the work right, so when the submarine gets 
here, we can get it in and out on time in full.
    Mr. Courtney. One just sort of slightly different sort of 
angle or topic is just the, your international shipyards, you 
know, in terms of Rota, Spain, and Yokosuka, Japan. You know, 
the feedback we certainly got from GAO and staff is just that 
they seem to be outperforming the folks domestically. And I am 
just sort of wondering whether you sort of have any comment 
about ways, you know, we can sort of match that domestically.
    Admiral Moore. Well, they have a couple of advantages. 
First, we send them ships that are fully maintained, so 
basically, we make pretty much a big upfront investment before 
we send them forward. We haven't done that all the time in 
Yokosuka. That was I think some of the challenges we had 
previously. We are committed now that they are only going to 
stay over there for 8 years, so they are going to go fully 
maintained when they get there.
    The other thing is, we do the maintenance at very short-
focus maintenance periods. You have the same maintenance team 
working on the ship every year. For instance, the ships in Rota 
get maintenance every year, every, for 4 months and then they 
go operate for 4 months, similar to the carrier in Yokosuka. 
That is a very good model for the forward-deployed ships 
because they are already over there and we have a rotational 
force. It doesn't quite work quite as well at home, but there 
are certainly things we are learning from Rota and Yokosuka we 
want to fold back into the maintenance we are doing at home. 
Sir.
    Mr. Garamendi. Joe, thank you for joining us. You bring 
extraordinarily important experience and knowledge to the whole 
thing.
    Joining us is Elaine Luria who represents a shipyard.
    Mrs. Luria. Hi. Well, thank you, Admiral Moore and Mr. 
Geurts, for being with us today. Unlike Mr. Courtney, I want to 
focus mostly on aircraft carrier maintenance. And when we 
developed the class maintenance plans for the Nimitz-class 
carrier, are there specific times, durations for the 
availabilities that were developed into the class maintenance 
plan when we, you know, first brought the Nimitz class online?
    Admiral Moore. Yeah, when we first built the class 
maintenance plan, the incremental maintenance plan as it is 
called today, the plan was developed with a 24-month cycle and 
we expected to have ships in availability every six, you know, 
every 2 years. At the time that included----
    Mrs. Luria. Okay, so was the first DPIA, docking planned 
incremental availability, in the ship's life, what was the 
duration intended to be for that?
    Admiral Moore. At the 24-month cycle it was at 10\1/2\ 
months.
    Mrs. Luria. Okay. And so currently, the George H.W. Bush 
[CVN 77] is in a DPIA, the first in its life cycle. What is the 
duration of that availability?
    Admiral Moore. The notional duration for the Nimitz class 
today in the 36-month cycle is 16 months based on----
    Mrs. Luria. Okay, so the notional is shifted based off of a 
36-month, I assume, the OFRP [Optimized Fleet Response Plan] 
model that we have gone to now. However, you say it is 
notionally 16 months?
    Admiral Moore. That is correct.
    Mrs. Luria. And the Bush's availability is planned for 16 
months?
    Admiral Moore. No. George H.W. Bush, because of a unique 
work on that ship and because of other work in the shipyard, is 
going to execute at 28 months.
    Mrs. Luria. Okay, so 28 months versus the 16 months that it 
should be planned.
    Admiral Moore. That is correct.
    Mrs. Luria. Well, you say unique work. I visited the 
shipyard myself. The shipyard CO [commanding officer] told me 
that shafting and propellers was the limiting path work. I 
don't find that to be too unique over the class of ships, so 
can you explain the limiting work also going on in the 
shipyard, MTS [moored training ship] conversion, other 
submarine work? Have we prioritized that ahead of aircraft 
carrier maintenance?
    Admiral Moore. Well, I think it was a balanced approach. I 
don't want to disagree with the shipyard commander, but there 
is a number of other things on that ship that is driving the 
length of that availability.
    Mrs. Luria. Okay, I am familiar with the other things, but 
I was told it was shafting and propellers which seems unlikely 
to me to be the----
    Admiral Moore. I would agree with you there.
    Mrs. Luria. To move on, just to talk about successful 
completion of availabilities within timeframes, we usually use 
that as a milestone. And so, coming out of this avail, are you 
going to say it is successful if we complete it in 28 months or 
is it already a failure because it is 28 instead of 16 which it 
should have been?
    Admiral Moore. Oh, no. Based on the work that we have to do 
and based on the work on the Wyoming to deliver a strategic 
asset and the work that we have to do on the moored training 
ship San Francisco, which is critical to training our nuclear 
workforce, it is a balanced plan, and if we finish in 28 months 
it will be successful. Obviously, we are trying to get that 
done earlier.
    But back to some of the earlier conversations, based on the 
available capacity we had and the work, we tried to lay out a 
realistic plan that we can deliver to, so 28 months for Bush 
will be successful based on the work and the other work that 
was in the shipyard at the time.
    Mrs. Luria. So then if you are saying that only 30 percent 
complete on time, they are completing on time to a much-
extended duration above what the class maintenance plan 
originally subscribed when we invested in the Nimitz-class 
carriers; is that correct?
    Admiral Moore. Well, no. That is not correct. Bush is at 28 
months, but 9 out of the last 10 carriers have delivered on 
time.
    Mrs. Luria. On time per the duration in the class 
maintenance plan per the ship's design?
    Admiral Moore. Yes. Yeah, on time and in accordance with 
the class maintenance plan.
    Mrs. Luria. Nine out of the last 10?
    Admiral Moore. Nine out of the last 10.
    Mrs. Luria. Okay, so I just happen to frequently look 
around the waterfront in Norfolk and it appears to me that 
there are currently six carriers in Norfolk that are not 
deployable? I can go down the list. We have the Eisenhower not 
deployable in its training cycle. We have the 73, the GW [USS 
George Washington], which is in its RCOH [refueling and complex 
overhaul]. The 74 [USS John C. Stennis] not deployable, it is 
waiting for several years before its RCOH starts.
    The 75 [USS Harry S. Truman] has an emergent casualty, is 
not able to deploy and relieve in the Gulf, approximately 2 
months behind schedule. [CVN] 77, we have discussed and its 28-
month availability which seems excessive based off of the 
lifecycle maintenance plan. And then 78, the Ford. We have 
basically invested $13 billion in a nuclear-powered floating 
berthing barge that is not deployable because of the aircraft 
elevators and the yet untested dual-band radar, catapults, and 
arresting gear.
    Is that an adequate assessment that 6 out of our 11 
carriers are sitting in Norfolk and nondeployable?
    Admiral Moore. Well, I mean Eisenhower is in a work-up 
cycle like all carriers are. She will be ready to deploy right 
after the first of the year.
    Mrs. Luria. Okay. I will give you a by for that one. But.
    Admiral Moore. Truman, will have her fixed here shortly. It 
is not unusual that we would have two carriers at any one time 
in depot maintenance. You always have one carrier in refueling. 
Gerald R. Ford is new, obviously new construction; there is 
four. Once we get Truman back----
    Mrs. Luria. So, the taxpayers have made a good investment 
to currently have 6 carriers on the east coast, plus I 
understand 1 on the west coast, 7 of our 11 carriers in a 
nondeployable status, and we are having to extend the Lincoln 
on deployment because of 1 emergent casualty on 1 carrier. And 
that is where you desire to be in our readiness status for the 
aircraft carrier fleet?
    Admiral Moore. Well, it is obviously not where we desire to 
be. We certainly would have liked Truman to have deployed on 
time. There are three other carriers ready to go right after 
the first of the year that came out of maintenance. So yes, I 
think the taxpayers have made a good investment.
    Mrs. Luria. So, we were supposed to, by OFRP, develop a new 
surge capability, but that doesn't seem to be the case when the 
one carrier we have deployed can't be relieved on time. So, is 
the OFRP actually generating that surge capability that we need 
to maintain presence?
    Admiral Moore. Well, I think that question is probably best 
left to the fleet commanders, but in general the 36-month OFRP 
provides a lot more surge capacity than the previous models 
that we operated under. You basically get the carrier after you 
consider 6 months' maintenance and 12 months' work-up, the 
carriers deploy----
    Mrs. Luria. Are we ever doing just 6 months' maintenance?
    Admiral Moore. Sure.
    Mrs. Luria. Is 6 months still the PIA [planned incremental 
availability]----
    Admiral Moore. Six months is the notional for a PIA, sure.
    Mrs. Luria. And how many PIAs have we completed in 6 months 
over the last 5 years?
    Admiral Moore. Every one of them. Every one of the PIAs in 
the 3 years I have been in this job have completed on time, 
every single one.
    Mrs. Luria. But not the DPIAs?
    Admiral Moore. No, not the DPIAs. But we just finished 
Nimitz, our oldest carrier, on time. In fact, 4 days early out 
of a DPIA, going to----
    Mrs. Luria. And what was the duration of that DPIA?
    Admiral Moore. That was at 14 months.
    Mrs. Luria. Okay.
    Admiral Moore. And Carl Vinson is in the yard right now at 
17 months because of some unique work we have to do on the 
ship, but notionally 16 months is where we are trying to head 
with the carriers in the 36-month----
    Mrs. Luria. So then this seems endemic just on the east 
coast, because you are listing the west coast carriers being 
much more successful.
    Admiral Moore. Well, no. I mean, I think the Bush is at the 
28 months because of the issues I told you before. That is a 
unique thing. We certainly----
    Mrs. Luria. So, I mean we want to be here for readiness to 
provide you the tools to get the carriers out to deploy on 
time, so what else do you need to do that? I have been thinking 
a lot about, you know, the situation we have with why the 
Nimitz-class carriers are not successfully regenerating for 
deployment, and there seems to be some point in time when we 
went to an all-nuclear fleet we were just no longer able to 
keep up with the capacity for the maintenance anymore.
    You know, I think about my first deployment on Truman. I 
did their first deployment. We came back. We did their first 
PIA. We finished a few days early and that was a resounding 
success. And over the course of time when we were doing the 24-
month cycle we were successfully completing the availabilities 
on time, deploying within that timeframe. But then there was 
some point when the conventional carriers went away, when you 
lost Kitty Hawk, when you lost Independence, and all of the 
work only relied on two nuclear-capable shipyards.
    So, do we have the capacity we need between Norfolk Naval 
Shipyard and Puget Sound to do the work that we need?
    Admiral Moore. Absolutely, yes. We absolutely do.
    Mrs. Luria. Well, then why do we have six carriers sitting 
in Norfolk that can't deploy?
    Admiral Moore. Well, you have two carriers in maintenance 
which are scheduled to delivering on time. We are going to fix 
the Truman. You have three other carriers which are----
    Mrs. Luria. Well, explain to me 74. Why do we bring 74 back 
2\1/2\ years before GW is going to be done with their refueling 
and not deploy them? I was just there the other day and it 
appears to me that they actually have enough fuel to deploy 
again, at least a limited deployment. So why are we not 
deploying them----
    Admiral Moore. Vinson is available if we want to use it.
    Mrs. Luria. Well, they told me they weren't. The ship's CO 
specifically told me that they have already started down the 
path of what they need to do to prep for the RCOH. They only 
have two more underways and those are just, you know, VACAPES 
[Virginia Capes], OPAREA [at-sea operating area], carrier quals 
[CQ] underways. So, are you telling me that we are going to get 
the rest of the use out of the fuel that we have in 74, or 
changing the plan?
    Admiral Moore. We are going to use 74 as a CQ carrier over 
the course of the next year before she goes into RCOH. That is 
the plan and we will make as maximal use of the fuel that is 
available on that ship.
    Mrs. Luria. Well, they told me they only have two more 
underways. Should I refer to the operational fleet commander 
about that?
    Admiral Moore. Well, I think you should. Yes, ma'am.
    Mrs. Luria. Okay. So, you are telling me that you have all 
of the resources that you need to maintain our carriers?
    Admiral Moore. We do.
    Mr. Garamendi. This committee has been blessed with folks 
that know the ins and outs of much of the military, and you 
just heard an example of one of our knowledgeable new members 
of the committee. The issues of the carriers are extremely 
important to all of us. I have asked Ms. Luria to join us on 
these committee hearings as much as possible, particularly when 
we are dealing in an area of which she has significant history 
and experience.
    I don't believe she is satisfied with your answers, 
Admiral. You worked very, very diligently and I think 
completely, but I think you were talking past each other on a 
couple of things along the way. And I want to make sure that we 
hone in on this because it is an extraordinarily major, 
valuable part of the total naval assets that were under 
discussion just a few moments ago.
    So, we will circle back on this. I am going to ask Ms. 
Luria to hone in on her particular questions. She does 
represent the shipyard in which most of this activity occurs. 
We are going to do a second round of questions. I am going to 
defer my questions and go to Mr. Lamborn and then I will come 
back and see where we go on it.
    Mr. Lamborn.
    Mr. Lamborn. Okay, thank you. The Congressional Budget 
Office has assessed that overhauls conducted at private 
shipyards were 31 percent less expensive, on average, than in 
the public sector. How can we make the public sector more cost 
efficient? Are there options that we could pursue like public-
private competitions that were previous practices of a cost-
conscious government?
    Secretary Geurts. Sir, maybe I will start in a time--I 
think, you know, the Navy is on record of perhaps not agreeing 
with all the assumptions in that report and our recent 
experience in our private yard availability of submarines would 
probably indicate the model isn't exactly right. Having said 
all that, I think we need to absolutely leverage the power on 
both sides of things. I am wide open to any ideas that would 
allow us to fully leverage the strengths of both the public 
yard and the private industry. I think there is a lot we need 
to do on the private nonnuclear side which doesn't, you know, 
necessarily impact the shipyards, the public shipyards. But 
there is, probably, also things we can look at in the public 
shipyards to make sure we are maximizing those resources and 
ensuring we are doing only the work that is absolutely critical 
that has to be done there.
    As Rep. Luria said, we need to make sure we are getting 
ships in and out on time, and anything we can do to partner 
with the private industry to help that I think is a strength. I 
am not sure just sending the nuclear work to the private yard 
is going to be the panacea. We demonstrated the challenges with 
that with the submarines we sent there previously.
    Mr. Garamendi. Doug, could I just intervene for a moment?
    Mr. Lamborn. Sure.
    Mr. Garamendi. I agree. Nuclear power plants, public--
excuse me--private shipyards may be a problem. Is there some 
work on these nuclear vessels that can be done in the private 
yards and we might be able to split, do the nuclear piece in 
the government yards and the others in the other yards and 
maybe half and half during one----
    Admiral Moore. Yeah, we have that model in San Diego where 
we do maintenance on the carrier down there. In that case, 
Puget Sound Naval Shipyard comes down to San Diego to do the 
work in the propulsion plant and then we have an integrator for 
the topside work. In general, though, once it is in the naval 
shipyard in Puget and Norfolk Naval Shipyard it is probably 
less efficient to kind of split the work up. We do have private 
sector work on all of our carriers in the naval shipyards. A 
lot of the non-skid on the flight deck is done that way, a lot 
of the tank work, some of the--but in general, the most 
efficient way is to let the workforce of the naval shipyard 
execute that work, the complicated work that we do on the 
carriers once she is in the yard.
    Mr. Lamborn. Okay, I am going to shift gears and ask about 
the level load working schedule that we were talking about last 
week as well as it pertains to the private shipyards. Can you 
walk us through the vertical and horizontal approaches to 
grouping availabilities, the relative pros and cons of each 
approach and how they work with the contracting system to 
provide a more consistent demand signal to private industry?
    Secretary Geurts. Yeah, I will start maybe at the macro 
level and then Admiral Moore can jump in. So, you know, a long 
time ago we had kind of long-duration cost-plus contracts. They 
were not terribly effective in either cost or schedule. We 
went, I think, probably a little too far to the other direction 
where every ship was an individual fixed-price contract and 
awarded very close to execution.
    That didn't allow us to leverage the strength of the 
shipyards and caused them a lot of work, rework, hire folks, 
fire folks, you know. I was down at the private shipyards at 
Norfolk and listening to the, you know, going from a 2,000-
person workforce to an 1,800-person workforce to a 1,500-person 
workforce in a course of 2 years, and that is just not an 
effective way to use business.
    So, what we strive to do is not--is pick the right tool for 
the job, break the work up a little bit more thoughtfully, and 
then where possible leverage the strength of grouping 
maintenance activities together, yet still retaining 
competition and getting competitive pricing. And so that is 
kind of where you hear this vertically or horizontally bundling 
contracts is bundle the work so it can be done most 
efficiently, but also competitively, because we do see about a 
40 percent difference in cost if it is a competitive award 
versus a sole-source award. So, competition works, but 
competition too often and just-in-time competition, where I 
would say we were over the last 18 months is not terribly 
effective.
    Admiral Moore. Yeah, they are part of our--really, part of 
the strategy in particular on private sector maintenance as the 
Secretary explained. Horizontal bundling is basically we take a 
bunch of avails that are going to happen at about the same time 
in the port and we have the contractors all bid on those. And 
what that allows us to do then is to lay the bids out, see who 
has the capacity to do the work, and arrange the ships at the 
yards in the way that it is going to best guarantee that we 
deliver them on time. The classic example at Norfolk is we were 
able to allow Colonna's, who was teaming with MHI [Mitsubishi 
Heavy Industries], a chance to get amphibious work. The 
Secretary was down on [USS] Gunston Hall last week. They would 
never have been able to get in the market before, only BAE and 
NASSCO could do it. MHI said, I have a dock, and NASSCO and 
Colonna's said, I have the workforce. They teamed up and we 
were able to give them the work. The horizontal, what that 
meant is we are going to take three heel-to-toe ships and we 
are going to let you bid on those. And so, if you win that 
award you basically know you have got now stable, predictable 
work over the next 3 to 4 years and then you can plan and grow 
the workforce, make the investments.
    So, it is a mix between both of them that will allow us to, 
I think, optimize and get to what the industry is looking for 
in terms of stable, predictable work, but also allows the Navy 
to make some good decisions about where the work goes in a 
competitive environment so that you don't end up stacking too 
much work in one yard, which is not executable.
    Mr. Lamborn. Thank you, Mr. Chairman. I yield back.
    Mr. Garamendi. I thank you, Mr. Lamborn.
    The issue of scheduling continually comes up. I am very, 
very concerned that all of the best intentions that you may 
have, Secretary Geurts and Admiral Moore, are going to be 
pushed aside by the COCOM commanders that want to hang onto a 
ship or multiple ships for whatever purpose. And as I look at 
the structure you are going to have to endure, the COCOM 
commanders are going to take the ships and that is that and 
therefore your schedules are going to come unglued or won't 
work.
    You are talking about heel-to-toe, three or four ships, 
excellent idea, all the things you described, all of which are 
dependent upon the ships actually coming back for maintenance. 
And if they don't come back on within, say, 2, 3, 4 weeks or 
months, suddenly everything is out the door and you have got a 
problem.
    I am going to have a long, serious, longtime conversation 
with the COCOM commanders and the Secretary. I am going to look 
at the decision-making structure within the Department of 
Defense because I think the best of plans that you have are 
going to be overridden because the President wants to go out 
and see the PACOM fleet at work. He doesn't want to do it in 
June, but is available in September and therefore 3 months are 
gone and now we have got a problem.
    So, I want to really focus on that because I am convinced 
that the scheduling is one of the two or three critical issues 
here. If we don't have a clear schedule, if those ships are not 
coming back on schedule, then the best of intentions are just 
simply aren't going to work. So be aware, I am going to drive 
this insofar as I can and we are going to take it all the way 
up, Mr. Esper and down, and it will eventually land on your 
desk and you will either have a schedule or you won't. 
Otherwise it isn't going to work, in my view.
    The other thing--and I see Mr. Lamborn left, and I just 
wanted to poke him a bit. We have talked about upgrading the 
public yards. You mentioned MILCON as a mechanism we have used 
before. We are looking at perhaps another mechanism, this 20-
year plan, which by the way I think ought to be like a 5-year 
plan and we, you know, we need to, again back to scheduling. 
So, we are going to go into in-depth, look at your scheduling 
and then look at the money you need to make those public yards 
capable of carrying out that schedule. There is, also, the 
private yards. I want to talk to our colleagues over in 
Transportation and Infrastructure, the Maritime Committee, the 
money that they have available for shipyards to be upgraded, 
and then your certification process, I want to go into that in 
detail. You are quite correct we don't need a catch-22 here, 
but I want to know what you are doing reaching out to yards to 
get them certified and/or at least informing them on what they 
need to do to be certified so that that competition is in 
place. And I think that is very, very important and therefore 
this committee thinks it is very important, so we want to drive 
that in some specific details.
    I see the notetakers behind you taking notes. Gentlemen, 
please, come back at us with regard to that.
    Now, [section] 2808, your shipyards. Portsmouth, do we know 
where that is? I think we do. Twenty-two-and-a-half million 
dollars of high-priority hazardous material warehouse, gone, 
not going to be done; $26.1 million for ship maintenance 
facility at Portsmouth, gone; $18\1/2\ million for hazardous 
material warehouse at Norfolk, gone; all to build a border 
wall. I took this committee to Poland, 2, 3 weeks ago now, and 
asked the Army, what are you going to do, and asked the Air 
Force, what are you going to do since you are not going to 
build your runway anytime soon?
    So, gentlemen, what are you going to do since some $70 
million just disappeared from what you thought were priority 
infrastructure programs at Portsmouth and Norfolk? And don't 
tell me we are going to backfill.
    Secretary Geurts. Yes, sir. I mean, obviously, all those 
important projects are still important and the fact they were 
put on that list does not mean they are not important nor do 
they add value to us. You know, the Department as you know went 
through a process of racking and stacking those and made a 
decision. What we are going to do is, you know, continue to 
plan for those projects where it goes back as we get them in 
the budget. They are not core in terms of SIOP, you know, core 
dry dock kind of infrastructure, but they are important 
activities that we will continue to pursue as we go forward.
    Mr. Garamendi. You know your answer isn't sufficient.
    Secretary Geurts. Yes, sir.
    Mr. Garamendi. So why don't you think about a sufficient 
answer?
    Secretary Geurts. Yes, sir.
    Mr. Garamendi. Something is not going to be built soon, $70 
million of work at Portsmouth, Norfolk isn't going to happen 
soon. So, what is going to take place? You are going to 
restack. I suspect when you said the Department, you were not 
asked what was important. Is that correct?
    Secretary Geurts. Sir, we were--we provided our input back 
up to the SECDEF [Secretary of Defense] for the decision. We 
have obviously those things in legacy facilities, so it is not 
an immediate mission stoppage.
    Mr. Garamendi. I would be remiss in saying that the power 
of the purse lies with the Congress, not with the President, 
and what the President did for $5.6 billion is contrary to the 
Constitution. It is something we are going to wrestle with on 
the power that we must maintain as an equal branch of 
government and particularly the power to appropriate money. We 
are not going to let it go.
    Ms. Luria, you had another set of questions?
    Mrs. Luria. Well, thank you again. Thank you again, 
Chairman Garamendi, for allowing me to participate today. I 
wanted to go back to aircraft carriers; specifically I wanted 
to talk about the Ford.
    And I know, Admiral Moore, dating back to 2011 you were PEO 
Carriers before your current position. And, you know, over the 
course of the Ford there are four particular technologies that 
have been the most challenging: the dual-band radar, the 
catapults, the arresting gear, and the aircraft elevators. Can 
you give us a brief summary of where each of those are?
    I am most interested in the aircraft elevators because my 
understanding--not the aircraft elevators, the ammunition 
elevators, because my understanding and my most recent visit 
there were only two that were operable. None of those go to the 
magazines. If you can't put ammunition in the magazines, you 
can't deploy the ship and it is not really an asset that is 
available for warfighting. And in addition to that, what is the 
long-term focus for getting that work done? I have asked 
several times from the Navy to have a specific schedule that 
takes into account the shock trials, the eventual deployment, 
and all of the other pieces that need to go into place, so I 
would really like to focus on the Ford for a few minutes.
    Secretary Geurts. Yes, ma'am. Maybe I can take that 
question. So, I am happy to provide you a specific schedule 
that works in all the timelines we will have the ship after it 
goes on its PDT&T [post-delivery test and trials] over the next 
18 months.
    Mrs. Luria. So, is there an actual schedule?
    Secretary Geurts. Yes, there is.
    Mrs. Luria. Because I got the update to the Senate Armed 
Services Committee and it didn't have an actual schedule that 
included the deployment and all the other timelines.
    Secretary Geurts. Yes, ma'am. I have got it here. I am 
happy to sit down with you and share with you or schedule an 
office call and go through that in whatever detail you would 
like. Over the weekend we certified our third elevator, so that 
is turned over to the crew.
    Mrs. Luria. Right, but that only goes from the flight deck 
to the hangar bay. You are still not putting anything in or out 
of the magazines.
    Secretary Geurts. Yes, ma'am. Yes, ma'am. So, we are on 
track for the upper elevators. We have three of the lower 
elevators in construction and test. They are moving. They are 
going down. I am happy to run through the schedule with you. We 
are ferrying in the completion of those with the need dates for 
the crew for training certification when they start flight ops 
in the calendar year and working in how we are going to finish 
up those elevators in tandem with availability of the ship when 
it is over at the naval station.
    Mrs. Luria. Okay, so it is going to deploy on time? What is 
on time? It should have already deployed by now, right? So, are 
we looking at 2023? Are we looking at 2024? Is even that 
optimistic?
    Secretary Geurts. In terms of operational deployment we are 
working that right now with the CNO and we should have that in 
the next 30 days online.
    Mrs. Luria. So, you do or you don't have a full schedule?
    Secretary Geurts. We are re-looking at that full schedule 
in lieu of shock trials and working with the CNO to make sure 
we have got alignment between the CNO, the fleet, and myself in 
delivering all the elements of the ship for deployment. So, we 
should have that available to you. When it is available, I am 
happy to come over and brief.
    Mrs. Luria. Okay. I look forward to talking about that.
    Secretary Geurts. Yes, ma'am.
    Mrs. Luria. And I am not sure if Mr. Geurts or Admiral 
Moore would like to provide the update on the dual-band radar, 
catapults, and arresting gear and where we are with those 
systems in testing and operability.
    Secretary Geurts. So, we are working all those. We will go 
test those in a PDT&E [post delivery test and evaluation] 
session, so we have completed the work we had planned to do 
over the PSA [post shakedown availability] with those. We will, 
when the ship goes to--after PSA we will verify the maintenance 
activities and we will in this next 18 months fully exercise 
all those systems as we train and certify crew and get those 
systems up and running. And our intent is to get, you know, and 
we have had, you know, 787 or 747, I think, traps and launches. 
Our intent is to put that in the thousands to fully check out 
all those systems, shake them all out, make sure they are ready 
to go to war.
    Mrs. Luria. So, in that 700 or so launches and recoveries, 
did we meet the operational design requirements for successful 
launches and recoveries, or I believe there was a higher than 
anticipated failure rate during that first set of testing, and 
what have we done to----
    Secretary Geurts. Yes, ma'am. The biggest issue is just 
sheer numbers to get any confidence and reliability that we 
don't have a sample size large enough. And so our intent 
working with the fleet and the captain in this next 18-month 
cycle is to get thousands of reps and sets on those cycles, 
make sure we are comfortable, that we understand the 
reliability, confidence in their performance, and that we can 
train and certify the crew to operate those in a wartime 
environment.
    Mrs. Luria. Okay. And my last question is, and maybe 
Admiral Moore since you have a lot of history with this program 
going back to 2011 as PEO Carriers, when was the ship 
originally planned to deploy when construction started?
    Admiral Moore. The original delivery was in the 2013 
timeframe and so I think the original deployment date would 
probably be in the 2018 timeframe, if you look back based on 
what the schedules that were built for the original delivery 
plan.
    Mrs. Luria. So, the original deployment should have been 
2018.
    Admiral Moore. That is correct.
    Mrs. Luria. A year ago. And best estimates we are looking 
at 2024?
    Admiral Moore. I think we will beat that, but----
    Mrs. Luria. Six years past that?
    Admiral Moore. I think the Secretary will come give you the 
details. And we are working to pull it as far back to the left 
as we can, but I think we are going to beat 2024 for sure.
    Mrs. Luria. I just truly don't feel like this is a great 
investment as a taxpayer, $13 billion in a ship that is going 
to deploy 6 years past its original design timeline. And have 
we incorporated any of the lessons learned from the 
construction of the Ford and the 79 [USS John F. Kennedy]?
    Secretary Geurts. Yes, ma'am. We have. Two things ongoing, 
one is for those four systems also done an independent review 
to make sure we have got the sustainment and all the things we 
need to sustain those systems, not just operate them. Secondly, 
we are seeing right now in Ford and 79 about an 18 percent 
reduction in the man-hours to construct that ship. On the 
contract we have for [aircraft carriers] 80 and 81 there will 
be another 18 percent reduction. So yes, we have lots of 
lessons learned from first-in-class of that ship. We are 
incorporating even in elevators those lessons learned into the 
future ships.
    Mrs. Luria. So, we chose not to prototype some of these 
systems on shore-based prototypes before building the Ford, 
specifically the aircraft elevators. Is it my understanding 
that we are now actually going to build a shore-based prototype 
in order to test these and make sure they are fully 
operational, functionable in the next-of-class?
    Secretary Geurts. Yes, ma'am. For the weapons elevators we 
are building both a digital twin. We have a software version of 
that. We are doing a hardware and a loop version of that as 
well as a full shore-based standalone system up at 
Philadelphia, which will allow us to both test anything we need 
as well as ensure we can support those as we work through the 
N-class [next of class] of ships. It is a lesson learned 
obviously.
    Mrs. Luria. So I think I am out of time, but specifically, 
you know, look forward to in the future talking about those 
types of lessons learned on other ship construction programs 
either currently underway--I had the opportunity to visit the 
Zumwalt recently when I was out on the west coast--and then 
also some of the planned classes that we have, the frigate, the 
large surface combatant, the unmanned surface vessels, and, you 
know, how we plan to avoid some of these pitfalls in those 
newer programs that we have experienced in, say, the last five 
ship construction programs that we have had.
    Secretary Geurts. Yes, ma'am.
    Mrs. Luria. Thank you.
    Mr. Garamendi. That was excellent. That was really, really 
well done by both of you. Your questions, Ms. Luria, are right 
on and, Mr. Geurts, you answered the questions completely or at 
least as complete as I could understand. Part of it is some of 
that is over in Joe Courtney's turf and, you know, I don't want 
to get into his way, but thank you. It was a very, very good 
exchange and we will make use of it.
    The last question asked is lessons learned and applied to 
the future. Again, this is in Joe's turf, but some of that is 
going to come back. The sustainment question that was asked, 
the answer is blowing in the wind. You answered it, but the 
proof of sustainment is our turf here. And I had not even 
really thought about, okay, you are building these marvelous 
aircraft carriers and it is only going to be a matter of days 
or months before Ms. Luria is going to come in here and ask us 
about sustainment on the Ford or whatever ship it is. So, I 
want to pick that sustainment issue up and carry it forward.
    I am going to ask Ms. Luria to continue to work with us on 
this committee on the things that are pertinent to us and 
whenever she wants to jump into Joe's turf, as long as Joe is 
okay with that we are good.
    Mrs. Luria. Well, I am on his subcommittee.
    Mr. Garamendi. I know you are. I know you are. You are on 
his subcommittee, so we are obviously going to work together on 
these things. We have had, I think, a very, very good hearing 
here. I am going to stay on this scheduling issue because we 
are scheduling across two different very important parts of the 
Department of Defense, the COCOM commanders out there who see 
the world that they have got to address and then the 
sustainment piece of it which is Admiral Moore and Mr. Geurts, 
your turf, and there is definitely a conflict. And we should 
expect that conflict forevermore. How do we rationalize it? How 
do we deal with that conflict and overcome what will, which 
could create an impossible sustainment?
    Mr. Geurts, you seem to want to answer that question.
    Secretary Geurts. Yes, sir. I completely agree with you. 
The one piece that we control--I can't control the combatant 
commanders and their needs; I can control getting ships back 
out on time and getting them out in full. And so, my part of 
the deal that I have got to, that we have, Admiral Moore and 
the private yards and the public shipyards have got to focus on 
to Rep. Luria's observations is we have got to get ships out on 
time and in full. That is an element we control that we have 
got to do. That will help balance the challenges of the COCOM.
    Mr. Garamendi. I respectfully disagree.
    Secretary Geurts. Yes, sir.
    Mr. Garamendi. You think you can do it only if the ships 
are meeting your schedule, that is the ships are available by 
your schedule. You don't control that and we have seen in the 
past and I am absolutely certain we are going to see it again 
and again that the COCOM commanders are going to delay and ruin 
your schedule.
    Secretary Geurts. Yes, sir.
    Mr. Garamendi. And they will be gone before that ship that 
didn't get deployed. It is the next COCOM commander that will 
pay the price. That is the way things work here. We have got 
two folks out in the west, out in the Pacific that are 
coordinated. They are good buddies. Everything is good. 
Everything is fine. One or the other of them will be gone in 
the next year or so and maybe the personalities don't match. 
This is something that the top brass has to understand and this 
committee will help them understand.
    The other thing that I want to bring to your attention, we 
touched on it just briefly here, we are going to spend more 
time on it, and that is the supply train. It is, you mentioned 
one supplier. That may be the only supplier in the world that 
deals with your shaft that isn't working on your aircraft 
carrier, Ms. Luria, or maybe it is some other critical element. 
We want to deal with that. I am not going to bring up the 
energizing the shipbuilding industry bill here. I have talked 
to you guys about it. We need to build commercial ships also, 
big oceangoing commercial ships for the supply train as well as 
for delivering fuel and supplies across the ocean. Another 
issue. This has been very good, very, very helpful.
    Admiral Moore, thank you very much for all of your work and 
for staying on top of these issues. And, Secretary Geurts, 
thank you very much. We are adjourned. Thank you.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            October 22, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 22, 2019

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

      
   

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 22, 2019

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. HOULAHAN

    Ms. Houlahan. Many studies have shown that America's four public 
shipyards are overwhelmed--their workload far surpasses their current 
capabilities. That problem isn't going away any time soon, and in fact 
it will only get worse as our existing public yards need infrastructure 
improvements to handle the latest additions to the Navy fleet. For 
example, Norfolk Naval Shipyard will need upgrades just to be able to 
maintain the new Ford-class aircraft carriers. Likewise, Portsmouth 
Naval Shipyard will have a difficult time handling the new Virginia-
class subs without new investment in infrastructure. Given these harsh 
realities, does it make sense to incorporate more private shipyards 
into the Navy's long-term repair plans?
    Secretary Geurts and Admiral Moore. The Navy considers both the 
public and private industrial base when scheduling maintenance and 
modernization of its ships and submarines. As such, the Navy values and 
leverages the capabilities and capacities at our four public shipyards 
and the two private sector nuclear capable shipyards, Electric Boat and 
Huntington Ingalls Newport News, to support readiness requirements. 
While modernization is needed at the public shipyards, the current 
repair and maintenance industrial base represented by these six 
shipyards provides sufficient capacity to dry dock and maintain the 
Navy's aircraft carriers and nuclear submarines. The Navy is currently 
engaged in multiple lines of effort to enhance productivity and 
optimize Naval shipyard infrastructure to ensure delivery of this 
capability. With the upcoming retirements of LOS ANGELES Class 
submarines as they reach the end of their service lives, the Navy does 
not foresee a need for additional nuclear-capable private shipyards.
    Ms. Houlahan. Is the ship dry-docking and maintenance capacity 
impacted by the growing needs of commercial vessels or the cruise 
industry?
    Secretary Geurts and Admiral Moore. The Navy's current dry-docking 
and maintenance capacity is not directly impacted by the needs of the 
commercial industry.
    Ms. Houlahan. The Senate Appropriations Committee is recommending a 
pilot program for ship maintenance that would transfer $1.2 billion in 
Operations and Maintenance, Navy funds to the Other Procurement Navy 
account in order to contract for private shipyard maintenance of our 
Navy's Pacific Fleet. I would like to get your perspective on the 
record. Are you in favor of this Senate provision becoming law? 
Further, assuming that we do reach agreement and enact appropriations 
for the Department of Defense for fiscal year 2020, I would like to ask 
you both about the ground rules for this potential funding and how the 
Department of the Navy would go about executing the pilot program. What 
ship classes would you consider for maintenance? The pending Senate 
report language calls for the pilot project to address Pacific Fleet 
vessels only--would you be in favor of amending the Senate language to 
include maintenance for ships on the east coast as well? Would any 
competitions for availabilities be limited to homeports and/or fleet 
concentration areas? Do you foresee any impact on the public naval 
shipyards as a result of the pilot?
    Secretary Geurts and Admiral Moore. The Navy supports a pilot 
effort to explore the use of OPN funding vice O&M, Navy (OMN) to 
mitigate challenges associated with single year funding of multi-year 
ship maintenance availabilities for ships in Pacific Fleet.
    <bullet>  The following ships that have maintenance in private 
sector shipyards would be considered:
      <bullet> Cruisers (CG)
      <bullet> Destroyers (DDG)
      <bullet> Littoral Combat Ships (LCS)
      <bullet> Landing Helicopter Assault (LHA)
      <bullet> Landing Helicopter Dock (LHD)
      <bullet> Landing Platform/Dock (LPD)
      <bullet> Landing Ship Dock (LSD)
      <bullet> Mine Countermeasure (MCM)
      <bullet> Patrol Ship (PC)
    <bullet>  Pending the results of this pilot, the Navy would support 
expanding the authority to the east coast.
    <bullet>  The Navy must comply with 10 United States Code 
Sec. 8669a which restricts short-term availabilities (less than 10 
months long) to the homeport. However, competition can be expanded if 
there is insufficient capacity and/or competition in the homeport. 
Availabilities over 10 months long are competed coast wide.
    <bullet>  The Navy expects no impact to the public shipyards.

                                  <all>
</pre></body></html>
